2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
Nos. 20-512, -520

NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
v.
SHAWNE ALSTON, et al.,
Respondents.

AMERICAN ATHLETIC CONFERENCE, et al.,
Petitioners,
v.
SHAWNE ALSTON, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE ‘
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF PROFESSOR
SAM C. EHRLICH AS AMICUS CURIAE IN SUPPORT OF NEITHER PARTY in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 4788 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 27th day of January, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Chih
Lt RENEE J. GOSS 9 A.
My Comm. Exp. September 5, 2023 i

Affiant 40565

 

Notary Public
